APPEN_

STATE OF CONNECTICUT
APPELLATE COURT

Date: Hartford, November 26, 2019
To the Chief Clerk of the Appellate Court.
The Appellate Court has decided the following case:

SEAPORT CAPITAL PARTNERS, LLC
v.

Opinion Per Curiam.

SHERI SPEAR

Docket No. AC 41879
Trial Court Docket No. KNLCV126012072S

The judgment is affirmed.

Chief Judge.

Rescript

2a

APPEND.

APPELLATE COURT
STATE OF CONNECTICUT
AC 41879
SEAPORT CAPITAL PARTNERS, LLC
v.
SHERI SPEAR

JANUARY 15, 2020

ORDER
THE MOTION OF THE DEFENDANT-APPELLANT, FILED DECEMBER 9, 2019,
TO RECONSIDER EN BANC, HAVING BEEN PRESENTED TO THE COURT, IT IS
HEREBY ORDERED DENIED.

BY THE COURT,
/S/
CARL D. CICCHETTI
ASSISTANT CLERK-APPELLATE
NOTICE SENT: JANUARY 16, 2020
HON. JOSEPH Q. KOLETSKY
COUNSEL OF RECORD
CLERK, SUPERIOR COURT, KNL-CV12-6012072-S

193223

3a APPEN C
DOCKET NO. AC 41879

•

APPELLATE COURT

SEAPORT CAPITAL PARTNERS

•

AT HARTFORD

VS
SHERI SPEER

JANUARY 23, 2020

MOTION FOR EXTENSION OF TIME TO FILE PETITION FOR
CERTIFICATION TO SUPREME COURT
The undersigned Appellant moves, pursuant to Practice Book §§66-1
and 84-7 moves for an extension of time of up to 30 additional days beyond
February 4, 2020, up to March 7, 2020, to petition for certification in the above
captioned matter to the Supreme Court, for cause.
The parties to this Appeal have neither indicated that they consent or
not, and Appellee Seaport Capital Partners, LLC is unlikely to consent.
I. Brief Procedural History of the Case
This present appeal involves a bizzare, ambiguous and ever evolving
order by the Trial Court (Koletsky, J), which has undergone a series of wide
ranging permutations. This appeal began with an order that did not specify
what case or cases it applied, to, and presumably limited this Appellant's
ability to file any document of any kind in New London Superior Court. The
order, post appeal, evolved in numerous ways that have been confusing to
the Parties and even court staff.
This matter when to opinion per curiam, which did a profound
February 5, 2020: Granted to February 24, 2020. This is a final order.
/s/Carl D. Cicchetti, assistant clerk, appellate

4a

AP'.

)IX D

SUPREME COURT
STATE OF CONNECTICUT

PSC-190393
SEAPORT CAPITAL PARTNERS, LLC
v.
SHERI SPEAR •
ORDER ON PETITION'FOR CERTIFICATION TO APPEAL
The defendant's petition for certification to appeal from the Appellate Court, 194
Conn App 902 (AC 41879), is denied.
Sheri Speer, self-represented, in support of the petition.
Decided March 11, 2020
' By the Court,
/s/
Carl D. Cicchetti
Assistant Clerk - Appellate
Notice Sent: March 12, 2020
Petition Filed: February 24, 2020
Clerk, Superior Court, KNLCV126012072S
Hon. Joseph Q. Koletsky
Clerk, Appellate Court
Reporter of Judicial Decisions
Staff Attorneys' Office
Counsel of Record

L

ORDER 427016
DOCKET NO: KNLCV126012072S

SUPERIOR COURT

SEAPORT CAPITAL PARTNERS, LLC
V.
SPEAR AKA SHERI SPEER, SHERI

JUDICIAL DISTRICT OF NORWICH/NEW
LONDON
AT NEW LONDON
6/7/2017

ORDER
ORDER REGARDING:
05/16/2017 309.00 MOTION FOR ORDER
The foregoing, having been considered by the Court, is hereby:
ORDER:
Pending before the court is the plaintiff's motion for contempt and sanctions (Doc. No. 308.00) and
motion for order vacating protective order; motion for sanctions and motion for order entering default
against the defendant, Sheri Spear. (Doc. No. 309). A hearing was held on the motions on May 30 and
June 5, 2017, at which time the plaintiff attended but the defendant did not. While somewhat
overlapping, the motions are essentially aimed at the same thing: obtaining sanctions against the party
defendant in this case, Sherri Spear, for her refusal or failure to give the plaintiff a copy of certain
records, subject to a protective order, that the court allowed the plaintiff to file under seal. See Order,
Doc. No. 298.50 (May 1, 2017). The documents contained some medical information purportedly
justifying the defendant's request for a short continuance of the trial in this foreclosure action, originally
scheduled to start on April 12, 2017. The court ordered the defendant to give a copy of the information
to the plaintiff so that the plaintiff could object, with knowledge, as to the reasons for the defendant's
request, and it scheduled a hearing on the defendant's motion for continuance. The court also limited the
plaintiff's use of the records, inter alia, to this case only, by a protective order. Id. The defendant never
gave a copy of the records to the plaintiff and she did not attend the hearing scheduled on motion for
continuance. No lasting prejudice came to the plaintiff from the defendant's failure to comply with the
court's order, other than it suffered a temporary delay of this case (which has been pending since
January 12, 2012), since the motion for continuance was ultimately denied. See Order, Doc. No. 299.02.
Nevertheless, the plaintiff seeks sanctions for defendant's flouting of the court's order which would
have afforded the plaintiff the right to see the subject records, and for obstructing the progress of the
case by use of dilatory tactics.
Contempt is a disobedience to the rules and orders of a court which has the power to punish for such an
offense. Quaranta v. Cooley, 130 Conn. App. 835, 841, 26 A.3d 643 (2011). Contempt must be proven
by clear and convincing evidence. Brody v. Brody, 315 Conn. 300, 319, 105 A.3d 887 (2015). In order
to constitute contempt, a party's conduct must be willful. Sablosky v. Sablosky, 258 Conn. 713, 717,
784 A.2d 890 (2001). Moreover, the order of the court violated must be clear and express. A good faith
dispute or legitimate misunderstanding of a court's order may prevent a finding that a party's conduct
was willful. Id. Noncompliance alone will not support a judgment of contempt. Adams v. Adams, 93
Conn. App. 423, 431, 890 A.2d 575 (2006). Before finding a person in contempt for the willful violation
of a court order, the trial court must consider the circumstances and facts surrounding the violation.
Wilson v. Wilson, 38 Conn. App. 263, 275-76, 661 A.2d 621 (1995). In the instant case, the court finds
that the plaintiff has proven by clear and convincing evidence that the defendant willfully violated the
court's clear and express order without a good faith excuse when she failed or refused to give a copy of
the sealed documents to the plaintiff Therefore, the court finds the defendant, Sheri Spear, to be in
contempt.
A court has the inherent authority to impose sanctions against a party for a course of claimed dilatory,
bad faith and harassing litigation conduct, even in the absence of a specific rule or order of the court that
KNLCV126012072S 6/7/2017

Page 1 of 2

is claimed to have been violated. Maris v. McGrath, 269 Conn. 834, 844, 850 A.2d 133 (2004). Before
imposing sanctions, the court must find by clear evidence that the challenged actions were entirely
without color and were taken for reasons of harassment or delay or for other improper purposes, and that
the party's conduct constituted or was tantamount to bad faith. Id., 845; Rinfret v. Porter, 173 Conn.
App. 498, 509,
A.3d
(2017). In the instant case, the plaintiff has demonstrated with clear
evidence that the defendant manipulated the court's sealing rules and failed to follows the court's order.
The defendant precipitated a delay in the trial and denied the plaintiff a right to view documents in the
case pertinent to her continuance request. It was a purely dilatory maneuver orchestrated to prevent a
fair hearing on the defendant's motion for continuance in the case and it caused a delay in the progress
of the case. Therefore, the court finds the defendant, Sheri Spear, to have committed litigation
misconduct in that her tactics were entirely without proper use of procedure and she acted in bad faith to
accomplish her purpose of delay in deliberate violation of plaintiff's rights to a fair hearing on
defendant's motion for continuance.
Sanctions for such behavior may include fines, orders requiring the offending party to pay costs and
expenses, including attorney's fees; and orders restricting the filing off papers with the court. Practice
Book § 1-25. Disciplinary termination of a claim or defense is also available, but that sanction should be
imposed only as a last resort, and where it would be the only reasonable remedy available to vindicate
the interest of the other party and the court. Practice Book § 17-19; Millbrook Owners Ass'n, Inc. v.
Hamilton Standard, 257 Conn. 1, 17, 776 A.2d 1115 (2001); Ridgaway v. Mount Vernon Fire Ins. Co.,
165 Conn. App. 737, 760, 140 A.3d 321, cert. granted, 322 Conn. 908, 140 A.3d 978 (2016).
Considering all of the above, the court orders the following with respect to the plaintiff's requests for
sanctions:
The protective order is vacated inasmuch as the subject records were never given to the plaintiff by
the defendant as ordered;
The court awards the plaintiff $4,650.00 for attorney's fees incurred as a result of the defendant's
contemptuous flouting of the court's order and litigation misconduct. The amount is based on the
affidavits of counsel for the plaintiff showing the work involved, time expended and the fee schedules
upon which the charges were based. The court finds those charges and the plaintiff's request to be
reasonable. The defendant, Sheri Spear, is ordered to make payment to counsel for the plaintiff within
30 days of issuance of this order.
All other requests for other sanctions are excessive, unnecessary, or unjustified under the facts, or are
duplicative of sanctions already awarded. Therefore, they are denied.
Judicial Notice (JDNO) was sent regarding this order.
427016
Judge: ROBERT F VACCHELLI

KNLCV126012072S 6/7/2017

Page 2 of 2

ORDER 080571
DOCKET NO: KNLCV126012072S

SUPERIOR COURT

SEAPORT CAPITAL PARTNERS, LLC
V.
SPEAR AKA SHERI SPEER, SHERI

JUDICIAL DISTRICT OF NORWICH/NEW
LONDON
AT NEW LONDON
7/12/2018

ORDER
ORDER REGARDING:
04/02/2018 343.00 MOTION FOR CONTEMPT
The foregoing, having been heard by the Court, is hereby:
ORDER:
This case is a very model of abusive use of the courts, both state and federal, although these orders, of
course, will apply only to this court.
At oral argument, the self-represented defendant conceded that there was at the time of this hearing no
motion pending to reopen any issue that has not already been decided. She did mention that such a
motion was being typed to reopen a previously denied decision in Bankruptcy Court which has already
been denied within the last six months. It is startlingly clear to the court that Ms. Speer has no intention
of stopping this abusive use of the courts.
The court orders that the clerk accept no filings from this self-represented defendant or anyone on her
behalf unless and until she has complied with the court ordered payment of counsel fees of $4650.00 as
well as the $500.00 additional counsel fees which the court imposes today, for a total of $5,150.00.
Judicial Notice (JDNO) was sent regarding this order.
080571
Judge: JOSEPH Q KOLETSKY

KNLCV126012072S 7/12/2018

Page 1 of 1

ORDER 080571
DOCKET NO: KNLCV126012072S

SUPERIOR COURT

SEAPORT CAPITAL PARTNERS, LLC
V.
SPEAR AKA SHERI SPEER, SHERI

JUDICIAL DISTRICT OF NORWICH/NEW
LONDON
AT NEW LONDON
8/16/2018

ORDER
ORDER REGARDING:
07/20/2018 362.50 MOTION FOR TERMINATION OF STAY OF EXECUTION
The foregoing, having been heard by the Court, is hereby:
ORDER:
After hearing held in accordance with P.B.Sec. 61-11(d) the court finds that the defendant Sheri Speer
has abused the judicial system beyond imagination and not only does the court find that all of
defendant's actions are and will in the future be only for delay, but also finds that the due administration
of justice so requires.
Incredibly enough, Ms. Speers twice attempted to remove this case to Federal Court the day before this
hearing, the very action which resulted in the sanctions which initially caused the original stay in the
first place. Those pleadings were properly rejected by the clerk.
Therefore the motion to terminate stay is granted, and defendant is ordered not to file pleadings in this
court unless and until the sanctions imposed by the court have been paid.
Judicial Notice (JDNO) was sent regarding this order.
080571
Judge: JOSEPH Q KOLETSKY
Processed by: Timothy Furman

KNLCV126012072S 8/16/2018

Page 1 of 1

ORDER 419136
DOCKET NO: KNLCV126012072S

SUPERIOR COURT

SEAPORT CAPITAL PARTNERS, LLC
V.
SPEAR AKA SHERI SPEER, SHERI

JUDICIAL DISTRICT OF NORWICH/NEW
LONDON
AT NEW LONDON
6/27/2019

ORDER
ORDER REGARDING:
05/06/2019 389.00 OBJECTION TO MOTION
The foregoing, having been heard by the Court, is hereby:
ORDER:
For the reasons articulated in court on June 27, 2019 the following order issued:
Objection overruled as to the motion for protective order and sustained as to the motion for sanctions.
Short Calendar Results Automated Mailing (SCRAM) Notice was sent on the underlying motion.
419136
Judge: EMMET COSGROVE
Processed by: Linda Grelotti
This document may be signed or verified electronically and has the same validity and status as a document with a physical
(pen-to-paper) signature. For more information, see Section I.E. of the State of Connecticut Superior Court E-Services
Procedures and Technical Standards (https://jud.ct.gov/extemal/super/E-Services/e-standards.pdf), section 51-193c of the
Connecticut General Statutes and Connecticut Practice Book Section 4-4.

KNLCV126012072S 6/27/2019

Page 1 of 1

ORDER 419136
DOCKET NO: KNLCV126012072S

SUPERIOR COURT

SEAPORT CAPITAL PARTNERS, LLC
V.
SPEAR AKA SHERI SPEER, SHERI

JUDICIAL DISTRICT OF NORWICH/NEW
LONDON
AT NEW LONDON
7/30/2019

ORDER
ORDER REGARDING:
07/16/2019 405.00 MOTION TO REARGUE/RECONSIDER
The foregoing, having been considered by the Court, is hereby:
ORDER: DENIED
The court did not hear argument on this motion but considered the matter on the papers.
Short Calendar Results Automated Mailing (SCRAM) Notice was sent on the underlying motion.
419136
Judge: EMMET COSGROVE
Processed by: Linda Grelotti
This document may be signed or verified electronically and has the same validity and status as a document with a physical
(pen-to-paper) signature. For more information, see Section I.E. of the State of Connecticut Superior Court E-Services
Procedures and Technical Standards (https://j ud.ct.gov/extenial/super/E-Sery ices/e-standards.pdf), section 5 1-1 93c of the
Connecticut General Statutes and Connecticut Practice Book Section 4-4.

KNLCV126012072S 7/30/2019

Page 1 of 1

